No.

In the
Supreme Court of the United States

 

Scott Howard Meyer,

Petitioner,
vs.

Emily Peterson,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE MINNESOTA SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and
correct copies of the Petition for a Writ of Certiorari
was served on the persons listed below on the Ist day
of November, 2019, by depositing them with the
United States Post Office, with First Class Postage
prepaid.
James McGeeney

Attorney at Law

DODA AND McGEENEY PA
975 — 34th Avenue N.W.
Suite 400

Rochester, MN 55901

4)

Stephen M. West

Subscribed and sworn to before me this 1 Ast st day of

  
  
 

  

3 KRISTIAUSTIN| MOTCH
i NOTARY PUBLIC - MINNESOTA

  
